Audit of Emergency Action Plans for U.S. Mission Pakistan
(AUD-MERO-14-08)

(This is an unclassified summary of a classified report)

OIG conducted an evaluation to determine whether U.S. Mission Pakistan had
comprehensive, up-to-date, and adequately tested Emergency Action Plans (EAP).

OIG determined that the Bureau of Diplomatic Security approved the EAPs for Embassy
Islamabad and Consulates General Karachi, Lahore, and Peshawar. In addition, the
Embassy and Consulates General made personnel aware of their respective EAP and
periodic planning, training, and drills. However, the Emergency Action Committees at
each location had not ensured that certain resources were available to respond to some
emergencies.

OIG recommended that Embassy Islamabad and Consulates General Karachi, Lahore,
and Peshawar ensure that their EAPs were updated and practiced, and that resources,
services, and capacities were sufficient to respond to emergencies. OIG also
recommended that DS validate the adequacy of EAPs at high-threat posts, such as U.S.
Mission Pakistan.
